.'




 Department of Health and Human Servces

           OFFICE OF

      INSPECTOR GENERAL





     CHILD SUPPORT ENFORCEMENT

         INCENTIVE PAYMENTS





               VIC'

                      Richard P. Kusserow
                      INSPECTOR GENERA

          qa                JU 1991
                       OFFICE OF INSPECTOR GENERA


The mission of the Offce    of Inspector General (OIG), as mandated by Public Law 95- 452
as amended , is to protect the integrity of the Department of Health and Human Services
(HHS) programs as well as the health and welfare of beneficiaries served by those programs.
This statutory mission is carried out through a nationwide network of audits , investigations
and inspections conducted by three OIG operating components: the Office of Audit
Servces , the Office of Investigations , and the Office of Evaluation and Inspections. The
OIG also informs the Secretary of HHS of program and management problems and
recommends courses to correct them.

                          OFFICE OF AUDIT SERVICE
The OIG' s Office of Audit Servces (OAS) provides all auditing servces for HHS , either by
conducting audits with its own audit resources or by overseeing audit work done by others.
Audits ' examine the performance of HHS programs and/or its grantees and contractors in
carryng out their respective responsibilities and are intended to provide independent
assessments of HHS programs and operations in order to reduce waste , abuse , and
mismanagement and to promote economy and effciency throughout the Department.

                          OFFICE OF         INTIGATIONS
The OIG' s   Office of Investigations (01) conducts criminal , civil , and administrative
investigations of allegations of wrongdoing in HHS programs or to HHS beneficiaries and of
unjust enrichment by providers. The investigative efforts of 01 lead to criminal convictions
administrative sanctions , or civil money penalties. The 01 also oversees State Medicaid fraud
control units which investigate and prosecute fraud and patient abuse in the Medicaid
program.

              OFFICE OF EVALUATION AN INSPECTONS
The OIG' s   Offce of Evaluation and   Inspections (OEI) conducts short- term management and
program evaluations (called inspections) that focus on issues of concern to the Department
the Congress , and the public. The findings and recommendations contained in these
inspection reports generate rapid , accurate , and up- to- date information on the effciency,
vulnerability, and effectiveness of departmental programs.

This report was prepared under the direction of Willam C. Moran , OEI Regional Inspector
General , and Natalie Coen , OEI Deputy Regional Inspector, Region V. Participating in this
project were the following people:


               Chcago                                       Headquarters
               Joe Penkrot (Project Leader)                 Susan Hardwick
               Suzanne Johnson (Lead Analyst)
               Ann O' Connor
Department of Health and Human Servces

        OFFICE OF

   INSPECTOR GENERAL





 CHILD SUPPORT ENFORCEMENT

     INCENTIVE PAYMENTS





          VIC'

                 Richard P. Kusserow
                 INSPECTOR GENERA

                     OEI-05-91-O750
--




                    EXECUTIVE SUMMARY

     PUROSE
     This inspection was conducted to determine the tyes of activities and projects States
     fund with the Federal child support enforcement (CSE) incentive payments they
     receive. This study was requested by the Department of Health and Human
     Servces ' Policy Council in connection with their review of child welfare programs.

     BACKGROUN
     In 1975 , Congress created the CSE program , a joint Federal- State effort to foster
     family responsibilty and reduce Federal public assistance payments , by adding Title
     IV- D to the Social Security Act. Congress provides incentive payments to encourage
     States , counties , and other political subdivisions to cooperate in the collection of
     child support.

     In fiscal year 1989 , Federal incentive payments to States totalled $234 milion.
     Federal regulations do not specify how incentive payments should be used by States.
     The only Federal requirement States must meet is to share incentive payments with
     any political subdivisions which share in the program costs.

     The Office of Inspector General contacted the State CSE agency in all 50 States , the
     District of Columbia , Guam , Puerto Rico , and the Virgin Islands to review whether
     or not any legislation or regulations exist that pertain specifically to the use and
     dissemination of CSE incentive payments. We also collected information from these
     54 respondents about their own State s uses of incentive payments.

     FJNINGS
            Thir-two   States have no statues or     regutions relatig to inentie paynts.

     Only 22 States have specific laws or regulations regarding incentive payments.
     However, often these laws or regulations only direct to what State account incentive
     payments go , rather than dictate how the State must spend the incentive payments.
     Only nine States mandate how incentive payments must be used.

            1h-foUT States report distrutg
            sudivns.
                                                   inentie   pa        to counti or polial

     The remaining 20 States are not required to share incentive payments with counties
     or political subdivisions   , since these entities are not sharing in the costs of the CSE
     program.
--




              Most States use inentie payents for ongoing CSE acties, but exrce wie
              latitu in usg inentie payents. In 10 States, some or aU of the inentive
              payts
              revenu.   Th
                                                          fu
                       are deposied into the State s general and are mingle with other
                             end use of the inentie paynts cannot be sPeciall
              determined in these intances.

     In addition to using incentive payments for CSE activities , some States use the
     incentive payments for other purposes , such as paying for part of the State share
     Aid to Familes with Dependent Children , Medicaid and/or Food Stamp program
     costs.

              At the State lee few sPecil projects are fued by inentie payts.

     Ten of the 54 States reported that special projects , mostly for CSE purposes , had
     been funded through incentive payments.
               . . . . . . . . . . . . . . . . . . . . . . . . .
                                                               ...           . . . . . . . . . . . .. .. .. .. .. .. .. .. .. .. . . .. . .
                                                                 .. .. .. .. .. .. .. .
                                                                                      .. ... ... ..
                                                                                                  . ... ... ... .. .. .. .. .. .. .. .. .. .. ..




                        TABLE                                          CONTENTS

                                                                                                                                          PAGE
EXECUTIVE SUMMAY

INTRODUCTION. . . . . . . . . . . . . . . . .

    Purpose
    Background. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .
    Methodology

FINDINGS

    Thirty- two States have no statues or regulations relating to incentive payments 3

    Thirty- four States report distributing incentive payments to counties or
    political subdivisions. . . . . . . . . . . . . . . .

    Most States use incentive payments for ongoing CSE activities , but exercise
    wide latitude in using incentive payments. In ten States , some or all of the
    incentive payments are deposited into the State s general fund and are mingled
    with other revenues. The end use of the incentive payments cannot be
    specifically determined in these                     instances


    At the State level , few special projects are funded by incentive payments

APPENDIX

   Appendix A: Summary of State Uses of Incentive Payments. . . . . . . . . . . . A­
                             INTRODUCTION

PUROSE
This inspection was conducted to determine the tyes of activities and projects States
fund with the Federal child support enforcement (CSE) incentive payments they
receive. This study was requested by the Department of Health and Human
Servce s Policy Council in connection with their review of child welfare programs.

BACKGROUN
In 1975 ,Congress created the CSE program , a joint Federal- State effort to foster
family responsibility and reduce Federal public assistance payments , by adding Title
IV- D to the Social Security Act. States were required to designate a single and
separate agency to locate absent parents , establish paternity, and collect child
support. These agencies are called IV- D  agencies. The Office of Child Support
Enforcement (OCSE), Administration for Children and Families , has oversight
responsibilty for these IV- D agencies. The OCSE helps States develop, manage , and
operate their programs effectively and according to Federal law.

Initially, the CSE focus was to establish and enforce child support court orders for
the Aid to Families with Dependent Children (AFDC) population. The States share
the AFDC child support collections with the Federal Government. The Congress
also provided incentive payments to encourage States , counties , and other political
subdivisions (often ,   a local prosecutor s office) to cooperate in the collection of child
support.

Beginning in 1984 , States were required to provide all CSE servces for non-AFDC
clients if they were not already doing so. Since States do not receive any share of
the non-AFDC collections , the incentive formula was expanded to include incentive
payments for non-AFDC collections made by States. States are limited in the
amount of non-AFDC incentives they can claim relative to their AFDC incentives.
Non-AFDC incentive payments to States are capped at 115 percent of their AFDC
incentives.

Federal regulations do not specify how incentive payments should be used. The only
Federal requirement States must meet is to share incentive payments with any
political subdivisions which share in the program costs. The method of sharing is left
to the States ' discretion. Counties and political subdivisions can and do use incentive
payments for a wide variety of activities , since there are no Federal requirements
prescribing how these funds are to be used.

In fiscal year 1989 , total Federal incentive payments to States totalled $234 millon.
 --

METHODOLOY
The Office of Inspector General (GIG) contacted the IV-D State directors in all 50
States , the District of Columbia , Guam , Puerto Rico , and the Virgin Islands
review whether or not any legislation or regulations exist that pertain specifically to
the use and dissemination of CSE incentive payments. We also collected information
from these 54 respondents about their own State s uses of incentive payments. We
did not independently verify the information supplied by the IV- D directors.

This inspection did not trace the flow of incentive payments within a particular State
or to counties and political subdivisions. We did not quantify the proportion of
incentive payments retained by the State for IV- D purposes or used by the State for
other purposes or passed through to units of local governments. Nor did we focus
on how counties and political subdivisions use the incentive payments they receive.

The OIG is auditing the flow of incentive payments in nine States (Alabama
Arizona , California , Kentucky, Michigan , New Mexico , New York, Pennsylvania and
Washington). This audit will determine how incentive payments are used at both the
State and local level in these States.




      Thoughut this report any referene to "th
      an th Vugi   Isla
                                                 States   irlu all 50 States, th Dist of Columbia, Guam Puo Rico
                                   FINDINGS

FIING 	               Th-two States have no statutes or regulations       relatig to
                      incentie payments.


Only 22 States have specific laws or regulations regarding incentive payments. Nine
States mandate how incentive payments must be used. (Appendix A summarizes
how incentive payments in all States are treated , and specifically how they are used
in the States that mandate expenditures.

However , in the other 13 States with laws or regulations , the only direction regarding
incentive payments is to what State account the incentive payments go , rather than
dictating how the State must spend the incentive payments. (The table on page 4
shows which States have laws or regulations relating to incentive payments and the
disposition of these funds.



FIING 	               Th-      four States report ditributig incentie   payments to
                      counties or politica subdivions.

States are required to distribute incentive payments to counties or political
subdivisions that share in the costs of the CSE program. In States where some or all
of the incentive payments go to counties or political subdivisions , these local entities
often provide all CSE servces in their jurisdiction. (The table on the following page
shows which States share incentives. ) The 20 States who do not share incentive
payments with counties or political subdivisions   are not required to do so ,   since these
entities are not sharing in the costs of the CSE program.

States use a variety of formulas to determine the amount of incentives that local
CSE agencies or others receive. Nineteen of the 34 States that pass on incentive
payments describe their formula as mirroring the Federal allocation formula for
incentive payments. At least six States - Arkansas , California , Colorado , Kentucky,
Minnesota , and Ohio - make additional incentive payments to further encourage
counties or political subdivisions to increase child support collections , or to stimulate
performance on certain tyes of cases , such as paternity cases.

There are no State requirements on how these entities spend incentive payments
except in Californa , Ohio , Pennsylvania , South Carolina , and Tennessee , all of whom
require expenditures on CSE activities.
                                                                                                    ~~~~~~~
                                                                                                  ~~~   ~~~~
                                                                                                         ..... .... .................         .. ,... .. ...... ......'()#.  . ....
                                                                                                                                                                        /.......
     . ..




                             STATE' DISPOSmON OF                       FEDER CSE INCENT PAYMNT

                                                                                   LalRegti
                                                                                   Mate
                                    Inti
                                  198                          State Ha IP         Routi (R)        Haw State Use IP
                                                                                                                                                State Madates
                                                                                                                                                Haw
State                             Payt (I)                     LalRegtin           Pu       (P)     (Se KEY         Be)                         Entities Use IP

AJabama                           $ 2 541 256                                                       CSE , Local
AJaska                                387 785                       YES                             CSE , GenF                                        N/A
Arzona                                832 435                                                       CSE, Local
Arkansas                              978 401                                                       CSE, SW       , Lol
California                            270 555                       YES
             R&P            Lol                                               YES
Colorado                              251 105                       YES
                            Lol
Connecticut                           090 846                                                       CSE                                              N/A
Delaware                              735 224                                                       CSE , GenF                                       N/A
District of Columbia                  636 644                       YES               R & P
        CSE                                              N/A
Florida                               700 474                                                       CSE , GenF , Local
Georgia                               846 361                                                       CSE , Lol
Guam                                      711                                                       GenF                                             N/A
Hawaii                                899 327                       YES                             CSE , Lol
Idaho                                 999 545                       YES              R & P
         CSE , SW                                         N/A
Ilinois                               210                           YES              R & P'         CSE , GenF,        Lol
Indiana                               294 849                       YES                             CSE, Lol
Iowa                                  309 068                                                       CSE, AFC ,        Lol
Kansas                                808 700                                                       CSE , SW ,      Lol
Kentuck-y                             506 530                                                       CSE, Lol
Louisiana                             659 545                                                       CSE , SW , Lol
Maine                                 979 297                       YES              R & P
         CSE, AFC                                         N/A
Maryland                              290, 480                      YES                             AFC , Lol
Massachusetts                         890 527                       YES              R&P            CSE                                              N/A
Michigan                              504 325                                                       CSE ,    Lol
Minnesota                             621 697                       YES                             AFC, Local
Mississippi                           576 129                                                       CSE ,    Lol
Missouri                              659 024                       YES                             CSE,     Lol
Montana                               777 632                                                       CSE, GenF,      Lol
Nebraska                              943 460                                                       CSE, SW      , Lol
Nevada                                751 237                       YES                             CSE, Lol
New Hampshire                         478 004                                                       CSE                                              N/A
New Jersey                            040 895                       YES                             Lol
New Mexico                            754 628                                                       AFC                                              N/A
New York                              965 078                                                         , Lol
North Carolina
                      293                                                            CSE , Lol
North Dakota                          696 859                       YES                             CSE , AFC, Lol
Ohio                                 347 929                        YES              R & P"         Lol                                              YES
Oklahoma                             430 811                                                        CSE, SW , Lol
Oregon                               862 369                                                        CSE , AFC , Lol
Pennsylvania                          137 100                                                       CSE, Lol                                         YES
Puerto Rico                           520 241                       YES                             CSE                                              N/A
Rhode Island                          349 510                                                       CSE, AFC                                         N/A
South Carolina                        062 878                       YES              R & P'"        CSE ,    Lol                                     YES
South Dakota                          664 164                       YES                             GenF                                             N/A
Tennessee                            829 201                        YES              R & P
         CSE, Lol
Texas                                144 214                                                        CSE                                              N/A
Utah                                  929 503                                                       CSE, SW                                          N/A
Vermont                                    691                                                      CSE, AFC                                         N/A
Virgin Islands                            151                                                       CSE, GenF                                        N/A
Virginia                                   586                                                      CSE , GenF                                       N/A
Washington                             363,35                                                       CSE, AFC , GenF                                  N/A
West Virginia                        611, 681                                                       CSE ,    AFC,                                    N/A
Wisconsin                            967 701                                                        CSE ,    Lol
Wyoming                                  337                                                        Lol
Nationwide IP Totals              $23 699 701
                                                                                                  KEY
                                                                                                                                        u..
 . In each calendar quaner, funds in   exce of anticipated IV -D needs are transferred to the       g)I:i.                              W;.;
    State s general fund.
 oo Local entities may fie a waiver of the State s mandate to us funds only for CSE activities.
                                                                                                                                                                                i:tS .
                                                                                                  .$W;                    m$#fl                                          Ceagency.
... Excess funds not used by locl entities in the fISl year earned , may be transferred to that
    entity s general fund.
                                                                                                                     i#f#
- -- -




         FJING                   Most States use incentie payments   for ongoing CSE actties
                                 but exercie wide latitude in using incentie payments. In ten
                                 States, some or al of the incentie payments are deposited into
                                         s general fund and are migled with other revenues.
                                 the State
                                 The end use of the incentie payments caot be specica
                                 determed in these instances.

         The only Federal requirement for States ' use of incentive payments is to distribute
         them to counties or political subdivisions who share in the costs of the CSE program.
         Consequently, States have taken many different approaches in allocating and using
         these funds. Some States have more than one use for the incentives. (In Appendix
           , State IV- D agencies report the uses of incentive payments in their State.

         Although 45 States do not have laws     or regulations prescribing the use of incentive
         payments , these States appear to have informal procedures for incentive payments
         that they follow. There appears to be no difference in the use of incentive payments
         at the State level among States with or without laws or regulations governing the use
         of incentives.


         Direct uses of incentive payments by States include ongoing CSE operations
         improving IV- D automated systems , piloting CSE demonstration projects , and
         funding additional IV- D agency employees. Motivating IV- D agency employees and
         negotiations with the State legislature to fund additional staff are among the indirect
         uses of the incentive   payments utilzed by the IV- D agency.

         In addition to using incentive payments for IV- D activities , some States use the
         incentive payments for other purposes. Several States use incentive payments to pay
         for part of the State share of AFDC , Medicaid and/or Food Stamp program costs.
FIING 	                   At the State level, few special project are fuded by incentie
                          payments.

Ten of the 54 IV- D agency respondents were able to point to either recent
current projects oraccomplishments specifically funded by incentive payments to
their States. 2   These
                     States and some of their diverse accomplishments , attained
because of the incentive payments , follow.

       Delaware is using 1 percent of the incentives to fund a demonstration project
       on the review and modification of support orders.

       Georgia contracts with a collection agency to increase collections of arrears on
       very difficult cases.

       Iowa and Kentucky used the incentive payments to cover the costs                                of systems
       development.

       Massachusetts contracted to convert cases to their Department of Revenue
       when the CSE function was transferred to this agency.

       Nebraska earmarked incentives from 1985- 1989 to fund the Nebraska
       Commission on Child Support.

       North Dakota increased AFDC monthly benefits from between 4 and 5
       percent effective July 1989.

       South Carolina was able to hire temporary key punchers when they converted
       to an automated system.

       Texas is conducting a pilot project on arrearage cases that links the IV-
       agency with the State Attorney General , who monitors these cases.

       Washington used some non- AFDC incentive payments to implement
       recommendations of a State commission to improve program efficiency.

Although not tied to specific events or projects , several State IV- D directors
mentioned the importance of the incentive payments in funding additional staff.
Mississippi , 270 IV- D agency time- limited positions are approved by the legislature
contingent upon the yearly receipt of the incentive payment.




       separate idtity in mo States sine the
                                                               fud
       It is not suriing tht so few States can cite special projects
                                              ft                        by inenve payts              pay
                                                                                              Incentive         hae no
                                                       are usall credid to a State though a reconcilWton proces an not
       an actual tranfer of monies
- -- -                              - -                                         --       --


                                          APPENDIX A

                      SUMY OF             STATE USES OF        INCENT PAYM
         This appendix reports IV- D agency respondents ' views on how their State uses the
         Federal CSE incentive payments.

         Our inspection was limited to discussions with State CSE agencies (the IV-
         director , in most instances). Therefore , the summary does not detail how counties    or
         political subdivisions providing CSE servces use incentive payments passed on to
         them by the State.

         Our respondents reported varied uses of, and benefits derived from , incentive
         payments. Their comments reflect both the direct and indirect uses and benefits of
         incentive payments.

         States that have laws or regulations prescribing how incentives are to be spent are
         marked with an asterisk (*

         Alabama

                  The incentive payments are used as a negotiating tool to encourage counties
                  to enter into " cooperative agreements " with the State to administer CSE
                  servces. These contracting entities (Le. , district attorneys , courts) are
                  reimbursed for their servces with the incentive payments.

         Alaska

                  The incentive payments are credited to the State general fund , from which the
                  IV-D agency receives its operating funds.

         Arna
                  The incentive payments help meet the State s share of CSE administrative
                  costs and also will be used to automate the IV- D caseload. The incentive
                  payments are also shared with counties to help reimburse part of the counties
                  CSE program expenses.




                                                        J.­

       --                                     --                                                      - -




            Arka

                 The incentive payments are used primarily to fund the CSE program ,       at least
                 to the extent of covering the States costs and reimbursing the 19 local
                 governments it contracts with to perform CSE servces. The incentive
                 payments are retained in a revolving account within the umbrella social
                 servces agency. Using funds from this account , the State was able to develop
                 a State-wide data system   costing about $1.3 millon.

                 Until 1991 ,  it was the State s policy to use these incentive payments exclusively
                 for the CSE program. However , the State is experiencing budget shortfalls
                 and is using this money to help fund its other social servce programs. As a
                 result , the balance in this revolving account has been diminished from a high
                 of $7 milion down to its present balance of about $1.2 millon.

            Caorna *

                 The State passes on all of the incentive payments to its counties. State law
                 mandates that the counties use the incentive payments only for CSE servces:
                  Any funds paid to a county ... over and above the county s cost of
                 administering a CSE program , shall be used to support enforcement servces
                 of the district attorney.

            Colorado

                 The State passes on all of the incentive payments to the counties with no
                 restrictions. This money helps to sell the CSE program to the counties and
                 also encourages them to invest in the program.

                  The State surveyed county usage of the incentive payments and found that:

                         48.1 percent apply incentives to CSE servces;
                         14. 8 percent apply incentives to other social servces;
                         24. 1 percent apply incentives to both CSE and social     servces; and
                         13. 0 percent apply incentives to their general fund.

            Conneccut

                  The incentive payments are used as a negotiating tool with the State
                  legislature during budget negotiations. To date , the CSE agency has received
                  full appropriation for all CSE servces.




- I

- -                       ---                                             - -              - -




      Hawai

              Most of the incentive payments are passed on to the counties to pay for the
              CSE program costs they incur. The State CSE agency retains a minimal
              surplus of incentive payments for its own use.

      Idaho

              The incentive payments are used to fund the CSE program. By statute , the
              incentive payments go into a " Cooperative Welfare Fund" where all deposits
              are perpetually appropriated for public welfare purposes. Thus , any incentive
              payments in excess of CSE program needs are used for other public welfare
              programs within the umbrella social servces agency.

      llois*
              The incentive payments are used to help fund the CSE program , including
              reimbursement for county contracted CSE servces. In each calendar quarter
              funds in excess of anticipated State CSE needs are transferred to the State
              general fund.

      Indiana

              The State CSE agency retains a small percentage of the incentive payments to
              fund the income withholding orders received from other States.

              Most of the incentive payments are passed on to counties using the following
              distribution to ensure equitable receipt of the funds: one- third of the
              incentives go to the county clerks ,   one- third to the prosecutors , and one- third
              to the county general fund. State      law also mandates that incentive payments
              cannot be used to augment the salaries of elected county officials.

      Iowa

              The incentive payments go into the State general fund.        At one time incentive
              payments were used specifically for system development. Now, it is State
              policy that about 60 percent of the incentive payments are used to help fund
              the AFDC program.

              Counties , providing CSE servces under cooperative agreement with the State
              receive about 40 percent of the incentive payments and primarily use them to
              offset CSE program costs.

              The incentive payments are also used by the State CSE agency as a
              bargaining chip because they are a revenue generating source.
            --       --                              -- -   --   - -   - - -   - -   --   --




Kaas
       The umbrella social services agency uses the incentive payments to offset
       revenue in its budget to the State legislature. The incentive payments are
       usually used to help make up a shortage of funds in the medical area. Also
       counties , providing CSE servces on behalf of the State , receive a portion of
       the incentive payments.

Kentucky

       Most of the incentive payments (90- 95 percent) are passed on to the political
       subdivisions , usually a contracting county attorney. These county entities use
       the money to maintain their CSE programs.

       A very small percentage of the incentive payments may be withheld for work
       the State CSE agency does on Internal Revenue Servce and State income tax
       refund intercepts. Prior to 1985 , the State accrued some money, which was
       used for system development of a State-wide computer system.

Louiiana

       The State pays most of the incentive payments (90- 95 percent) to the
       participating district attorney offices under contract to perform CSE servces.

       The remaining incentive payments are distributed within the umbrella social
       services agency. All social programs , such as CSE, AFDC and Food Stamps
       benefit from the incentive payments.

Maie
       By statute , incentive payments must be dedicated to reduce the State s share
       of AFDC and CSE costs. Incentive payments have helped contribute toward
       paying for support enforcement expenses , protective servces (e.g. , child
       abuse), and to help fund the State s new Nexus computer system.

Marland
       The State s   share of the incentivepayments are used to help fund the AFDC
       program costs. The remaining portion of the incentive payments are
       distributed to counties under contract with the State to perform CSE servces
       if they share in the costs of the program.




                                              5- .
            - -                  .-                  --   - -                   --   --




Masachusett*
      The incentive payments are used exclusively by the State CSE agency.
      Initially, they were used to enhance the CSE program. Now , the incentive
      payments are being used to pay for CSE administrative costs due to reduced
      CSE appropriations.

      The State has used incentive payments in the following ways:
      (1) reimbursement for servces rendered under interagency agreements (i.
     district attorney offices and unemployment offices); (2) purchase of a new
     computer system; and , (3) reimbursement for contract servces performed by a
     vendor to come in and do " court conversion " on cases from the State
     Department of Welfare to the State Department of Revenue.

Michigan

      The incentive payments are used in the State CSE agency for legal support
      contracts , State incentive programs , and for salaries of child support staff.
      The State also allocates some of the incentive payments to the counties
      providing CSE services.

Miesota
     The AFDC incentive payments are used by the State to offset AFDC costs.
     All of the non-AFDC incentive payments are passed on to the counties.

Misisippi
     The incentive payments go into the State general fund and are budgeted by
     the legislature to fund CSE staff positions. The State passes on the incentive
     payments , again as staff positions , to the counties providing CSE servces.
     The CSE agency has funded 270 time-limited positions with the incentive
     payments.

Misour
     Most of the incentive payments (about 90 percent) are distributed to city or
     county governents who have a cooperative agreement with the State to
     provide CSE servces. A small percentage of the incentive payments is
     retained by the State CSE agency and used , in part , to fund 150 State CSE
     employees. The CSE agency also re-appropriated some of the incentive
     payments to help fund the State s share of the CSE administrative costs.
                                     ..                  - -     --          -- -   - --   -   -- -




Montaa
      The incentive payments go into an " enterprise fund" and are used to cover the
      State s share of CSE costs. The State legislature designates the CSE agency
      budget. At the end of their fiscal year , any fund balance in excess of the
      State appropriation goes into the State general fund.

      Also , a portion of the AFDC incentive payments is shared with those counties
      under contract with the State to provide AFDC servces. The State CSE
      agency does all CSE casework.

Nebraska

      Currently, about 38 percent of the incentive payments are retained and used
      by the umbrella social servces agency. In the future , this percentage will
      decrease to 30 percent. From 1985 through 1989 the incentive payments were
      earmarked for the State CSE agency s use , and used to fund the Nebraska
      Commission for Child Support.

      Presently, the CSE agency s budget is not increased by the incentive payments
      even though the funds may be used for CSE activities. The CSE agency
      subtracts the incentive payments from their AFDC budget request. The
      remaining portion of the incentive payments are passed on to the counties
      under cooperative agreement with the State to provide CSE servces.

Nevada

      Most of the incentive payments (95 to 99 percent) are passed on to the
      county district attorney offces under cooperative agreement with the State to
      provide paternity establishment and enforcement servces. The remaining
      portion of the incentive   payments go into the State general fund and used to
      benefit CSE and other social programs.

New Hampshie


      The incentive payments go into the State general fund and are used by the
      State CSE agency to offset their administrative   funds.


New Jersey

      The law requires that all of the incentive payments be distributed to counties.




                                             C/­
New Mexico

      The incentive payments are budgeted as an offset against        the State   s share of
      AFDC program costs.

New York

      About 75 percent of the incentive payments are passed on to the counties.
      The balance of the incentive payments are used to offset the State s share of
      income maintenance expenditures. These payments are budgeted as part of
      the State general fund- local
                                 assistance account which includes , but is not
      limited to; AFDC , Home Relief, Supplemental Security Income , Emergency
      Assistance to Familes and Adults , and the Work Incentive Program.

North Caolia

      The State CSE agency uses the incentive payments as a budget receipt
          offset its program costs. The State also   passes on a portion of the incentive
      payments to counties performing CSE servces.

North Dakota

      Seventy- five percent of the incentive payments are passed on to the counties
      under contract with the State to provide CSE servces. In July 1989, the State
      used its share of the incentive payments to increase AFDC benefits by 4 to 5
      percent. Beginning July 1 1991 , the State CSE agency will be able to retain
      25 percent of the incentive payments for its own use.

Ohio *



      All of the incentive    payments are passed on to the counties. The State
      mandates that the counties spend these funds on CSE activities.

Oklahoma

      The incentive payments are used within the umbrella social servces agency to
      help fund CSE and other social and welfare programs. A portion of the
      incentive payments are also used for contract funding with district attorneys
          and Community Action programs.




                                           A.'
- -   - -            - -                  - --                         - -      --




            Oregon

                  The State uses all of the AFDC incentive payments and half of the
                  non-AFDC incentive payments to replace State general revenues. The
                  remaining non-AFDC incentive payments are distributed among the following
                  entities: (1)  county prosecuting attorneys. under cooperative agreements to
                  provide non-AFDC      CSE servces; (2) State Support Enforcement Division
                  office; and , (3) Child Support Enforcement Division within the State Attorney
                  General' s Office.

            Pennlvana
                  The incentive payments are retained in a restricted account and automatically
                  roll over year by year if not used. The State uses most of these incentive
                  payments to pay counties for the CSE servces they provide under cooperative
                  agreement with the State. The State has also used the incentive payments to
                  reimburse a " non-contract " county s paternity testing costs.

                  About 2 years ago , the State implemented incentive awards for county child
                  support workers who reach or exceed set goals. The awards are funded , in
                  part , by the incentive payments. In 1990 , the goals measured were: (1)
                  AFDC and non- AFDC net collections; (2) the number of paternity
                  establishments; and , (3) the number of upward modification petitions resulting
                  in higher child support orders.



                  Counties under cooperative agreement with the State are required
                  use the incentive payments to strengthen the mission of the CSE effort.
                  Counties have used the incentive payments for one of three purposes:
                  (1) to obtain goods and servces that would otherwse only be available
                  through special funding; (2) to augment CSE employees ' salaries; and
                  (3) for CSE related capital expenditures not covered by the Federal
                  share of administrative costs.

            Puerto Rico

                  The incentive payments are retained in a special account and used by the
                  CSE agency to fund its operating costs. These operating costs include
                  traveling expenses , equipment , personal computers and other fixed costs
                  except employees ' salaries.




                                                     A.' -:9
Rhode Island

      The incentive payments are budgeted as a receipt by the State CSE agency
      and used to offset AFDC expenses. Because the agency is seen as a revenue
      source , the legislature has allotted additional staff positions to the IV-
      agency.

South Caolia *

      The State budget proviso , with the effect of law, mandates that all incentive
      payments be used for CSE activities at both the State and county level. The
      State CSE agency retains about 22 percent of the incentive payments. The
      incentive payments have been used to hire temporary key punchers when the
      agency converted to an automated system; to purchase equipment and
      supplies; and , to replace funds lost due to State budget cuts.

      The remaining incentive payments (about 78 percent) are passed on to the
      counties ' clerk of the court under contract to provide CSE servces. Counties
      must use the incentive payments for CSE activities. However , any excess
      incentive payments not used by the county in the fiscal year earned , may be
      transferred to that county' s general fund.


South Dakota

      The incentive payments go into State general revenues. Each year " it's a free-
      for-air' in budget allocations , as all agencies compete for these funds.

Tennessee

      Most of the incentive payments are passed on to political subdivisions
      participating in the IV- D program. The State has three tyes of political
      subdivisions: (1) district attorneys , (2) counties , and (3) county and district
      attorney combinations.



      Any incentive payments earned in excess of 6 percent , are retained by
      the State and go into the general fund. This excess is used to offset
      State CSE agency expenses.




                                             1()n
                                    .. -




Texa
       The incentive payments are held in a special account , along with AFDC
       collections , and appropriated for use by the State CSE agency to operate its
       CSE program.

       In addition ,the incentive payments , in part , are currently funding a
       pilot project in some counties. This project entails a special computer
       hookup - called the Delinquent Monitoring System - with the State
       Attorney General' s office. This system immediately informs the
       Attorney General's office of delinquent child support payments in the
       month of delinquency.

Uta
       The incentive payments are used in the State umbrella social servces agency
       to operate the CSE program. Any excess funds not needed to fUn the CSE
       program are used to offset the State s public assistance costs.

Vermont

       The incentive payments are used by the State to fund CSE and AFDC
       program costs. Currently, incentive payments account for about 45 to 50
       percent of the CSE agency s budget.

Virgi Islands
       The incentive payments go into the general fund and are used , in part , as an
       offsetting revenue when funds are appropriated for the CSE program.

Virgia
       The incentive payments go into a special fund along with AFDC collections
       and the Federal share of CSE administrative costs. Funds to fUn the CSE
       program are appropriated from this special fund. Each year, any funds in
       excess of CSE operating costs are returned to the State general fund , which
       amounts to about 4- 5 percent.




                                             1- - .

Washigton

      The AFDC incentive payments are used to offset the State s share of AFDC
      administrative costs. The non- AFDC incentive payments go into the State
      general funds as offsetting revenue.

      In fiscal years 1989 and 1990 only, about 7 percent of the non-AFDC
      incentive payments were budgeted as supporting revenue to the IV- D program
      for the specific purpose of implementing the recommendations of a State
      Commission to improve program efficiency.

West Virgia


      Most of the incentive payments are used by the umbrella social servces
      agency to fund AFDC program costs. They may also be used to help fund
      CSE and other social servces programs within the agency.

Wisconsin

      The State retains a small portion of the incentive payments to help offset CSE
      program costs. Most of the incentive payments are distributed to counties
      under contract with the State to provide CSE servces. The counties   are also
      using the incentive payments to help offset CSE program costs.

Wyomig

                         payments are distributed to the county prosecuting offices
      All of the incentive
      under cooperative agreement with the State to provide CSE servces.




                                             l2-­
